Office of Inspector General  



        Office of Inspector General
      User Satisfaction Survey of the
Office of Information Technology Helpdesk

                OR10-04




              August 2010


FEDERAL MARITIME COMMISSION
 
                               FEDERAL MARITIME COMMISSION
                                   Washington, DC 20573-0001

                                             August 6, 2010

Office of Inspector General 
 
TO:              Anthony Haywood
                 Chief Information Officer


FROM:            /Adam R. Trzeciak/
                 Inspector General

SUBJECT:         OIG User Satisfaction Survey of OIT Helpdesk

The Office of Inspector General (OIG) performed a user satisfaction survey of the Office of
Information Technology’s (OIT) Helpdesk operation. The objectives of the survey were to (1)
determine whether controls are in place to ensure that all assistance requests made by customers
(e.g., agency staff) are documented, assigned and corrected in a timely manner; (2) customers are
notified of progress made to address their requests; and (3) customer requests are timely cleared.
To address the objectives, the OIG sent a data collection instrument to agency staff, interviewed
OIT personnel and reviewed service call tracking summary reports.

The Helpdesk received favorable marks from staff responding to the OIG questionnaire. Almost
70 percent (37 of 53 respondents) said that they were extremely satisfied or very satisfied with
the “overall experience.” Eighty-one (81) percent (43 of 53 respondents) indicated that their last
service request was resolved to their satisfaction. Respondents also provided helpful suggestions
to enhance Helpdesk performance. The most frequent suggestions centered on the need for
follow up by Helpdesk staff to ensure problems are corrected and keeping staff “in the loop”
when repairs or “fixes” are spread over several hours or days.

While the results generally speak well of the service the Helpdesk provides, OIG observations
and analysis suggest that there is still room for improvement. The Helpdesk has no policies and
procedures for technicians to use, for example, when assigning priority levels to calls for
assistance. (The priority assigned often determines the response time.) Consequently, the
priority assigned to a service call is based on the technician’s own assessment as opposed to
objective criteria. We found several instances where identical problems (e.g., printer down or
unable to log on to “pc”) were assigned different priority levels. We also identified some
questionable priority assignments.

We had several concerns with the tracking system used to assign technicians and monitor
outcomes. Most notably, we identified blocks of time where no calls were logged in and specific
requests that were missing from the log. Without complete information on the number of service
requests, the nature of the request, and the time required to respond to the request, the OIT
director has an incomplete picture of Helpdesk performance.

Finally, the OIG noted that the tracking software used by the Helpdesk has unused features that
could enhance OIT oversight of Helpdesk operations. We believe that staff should be trained in
Helpdesk operations generally and the tracking software currently in use. By using more
available features, customers could enter their service requests into the tracking system and track
the status of their service requests, call escalation would occur automatically based on a
predetermined time interval and trend analysis reports could be produced showing the kinds of
problems staff experienced to determine whether systemic problems exist.

The OIT director told the OIG that he made policy changes in January 2010 to enhance service
operations. While the impact of these changes will no doubt take time to materialize, we offer
seven recommendations that will help OIT achieve its desired goals for service efficiency and
effectiveness.

The OIG wishes to thank OIT for its cooperation and assistance in helping us to meet the review
objectives.

Attachment




                                                ‐ 2 ‐ 
 
                                   Office of Inspector General

                        Employee Satisfaction Survey of Information
                             Technology Helpdesk Services

        The Federal Maritime Commission (FMC) is an independent transportation/trade
regulatory agency which administers the Shipping Act of 1984 as amended by the Ocean
Shipping Reform Act of 1998; section 19 of the Merchant Marine Act, 1920 (1920 Act); the
Foreign Shipping Practices Act of 1988; and Public Law 89-777 (passenger vessel certification).
The Commission: monitors the activities of ocean common carriers, marine terminal operators,
conferences, ports and ocean transportation intermediaries (non vessel – operating common
carriers and ocean freight forwarders) who operate in the U. S. foreign commerce to ensure they
maintain just and reasonable practices; maintains a trade monitoring and enforcement program
designed to assist regulated entities in achieving compliance and to detect and appropriately
remedy malpractices and violations of the Shipping Act.

        The Office of the Managing Director has responsibility for the management and
coordination of Commission bureaus, including the Bureau of Trade Analysis, the Bureau of
Certification and Licensing, and the Bureau of Enforcement. The managing director also
oversees the agency's administrative offices: Office of Budget and Finance, Office of Human
Resources, Office of Management Services, and Office of Information Technology (OIT).

        The OIT supports the agency by operating the local area network and performing
strategic planning for short and long-term information technology initiatives, as well as
information technology (IT) security, data telecommunications, and database development and
management. The office also administers the agency’s IT Helpdesk, which supports users of the
agency’s information technology.

Objectives, Scope and Methodology

         The objectives of the survey were to (1) determine whether controls are in place to ensure
that all assistance requests made by customers (e.g., agency staff) are documented, assigned and
corrected in a timely manner; (2) customers are notified of progress made to address their
requests; and (3) customer requests are timely cleared.

        To address the review objectives, we distributed an electronic data collection instrument
to 117 agency employees, excluding OIT staff and the Chief Information Officer, to collect
information about their use of the Helpdesk and their satisfaction with the services they received
during the period April 1, 2009 to March 31, 2010. 1 The OIG received a 45 percent response rate
(53 of 117 staff surveyed). Respondents were not required to provide their name or other
identifying information.


                                                            
1
      A sample questionnaire with responses summarized is located at Attachment I. 


                                                   ‐ 3 ‐ 
 
        We discussed operating procedures with the Director of OIT and changes he has
implemented to improve performance. We also met with Helpdesk technicians to better
understand how service calls are prioritized and tracked, and observed a demonstration regarding
how service requests are entered into the tracking system. We obtained a transaction summary
report from the tracking system for the period April 1, 2009 – March 31, 2010, to assess
timeliness and how service calls are prioritized. In total, we received tracking data on 617
service requests. We also reviewed individual requests for service to determine how timely these
requests were entered into the tracking system.

       The OIG review was performed from April 2010 through July, 2010 following Council of
Inspectors General on Integrity and Efficiency Quality Standards for Inspections.

Findings and Recommendations

       Responses to the OIG’s User Satisfaction Survey were generally positive. A majority of
respondents viewed the help desk as responsive and able to “fix the problem.” The timeliness of
services was also viewed favorably.

       Staff provided useful feedback regarding (i) what the Helpdesk does well and (ii) ways to
enhance Helpdesk services. For example, two suggestions; better follow up and communication
regarding status of corrective actions, were identified by several staff as lacking. All responses
were provided to the Director of OIT for his review and consideration.

       Apart from our analysis of questionnaire results, we also reviewed Helpdesk processes
and procedures for their effectiveness. The Helpdesk does not have written policies and
procedures for staff to follow when logging service calls or responding to them. This has
impacted how calls are prioritized and logged and, ultimately, response times.

        We could not rely on the tracking system summary that was provided by OIT to assess
performance. We could not determine the universe of service calls received / responded to by
the Helpdesk. According to estimates provided by the OIT director, the Helpdesk receives 1,200
service requests per year. Yet the summary we received contained only 617 entries for the year
we reviewed. We also identified data entry errors, and instances where service tickets were
closed before problems were corrected.

        The OIT director told the OIG that he was aware of system “discrepancies” that occurred
during the time period. He also instituted new procedures in January 2010 to require the logging
of all Helpdesk calls and to reduce response time to 30 minutes.

       Finally, the tracking system is not being fully utilized. It has unused features that, if
implemented, could enhance the efficiency and effectiveness of the Helpdesk operation by
streamlining the logging function and giving staff direct access to its service tickets for the
purpose of receiving updates and submitting additional relevant information.

        Details on these and other findings with recommendations to enhance efficiency and
effectiveness of Helpdesk performance are provided below.

                                                 ‐ 4 ‐ 
 
Finding 1. Staff Views Help Desk Services Favorably

        Questionnaire results indicate that staff generally views the OIT Helpdesk as providing a
useful service. Fifty-three percent (28 respondents) said that they used help desk services
monthly. Sixty-six percent (35 respondents) told the OIG that they used e-mail to contact the
helpdesk when services were needed while 15 percent (8 respondents) bypassed the helpdesk
portal by contacting OIT staff directly. Staff from this latter group presumably felt that
bypassing formal channels produced quicker response times or at least enabled them to target a
particular technician.

        FMC staff made a variety of service requests to the Helpdesk during the period of our
review. Software and hardware problems accounted for 40 percent of the service requests, while
“other reasons,” including problems with the agency’s publicly-facing databases SERVCON and
transportation intermediary applications, accounted for 26 percent (14 of 53 respondents).
Network problems and install/move/change requests accounted for 15 percent and 13 percent,
respectively.

        Helpdesk response times were not as positive. Fifty-nine percent (30 respondents)
indicated that they received a response in person within 2 hours of the request. Some
respondents anecdotally told the OIG that responses were made in less than an hour. On the
other hand, 18 percent (nine respondents) said that OIT required one or more days to respond to
their last service request. Currently, response time standards are set in the tracking system
automatically depending on the priority level assigned. For example, a problem assessed by the
technician as “important” has a shorter response time standard than does a “noncritical” problem.
The OIT director told the OIG that, beginning in January 2010, he has set a response time goal of
30 minutes for all complaints. 2

        Eighty-one (81) percent (43 respondents) said that the last IT problem they had was
successfully addressed by the help desk. On the other hand, 13 percent (7 respondents) said that
their problem was not resolved to their satisfaction. About 15 percent (8 respondents) said that
they were either unsatisfied or very unsatisfied with the Helpdesk technician keeping them
apprised of repair status.

        About 40 questionnaire respondents indicated that they were extremely satisfied or very
satisfied with the speed in which a technician can be contacted and the professionalism of help
desk staff. About 66 percent (35 of 53 respondents) were either extremely satisfied or very
satisfied with the time it took to solve the problem and staff expertise. About two-thirds also said
that they were extremely satisfied or very satisfied with the “overall experience.” Between four
and eight percent were very unsatisfied with the above identified categories.

       The OIG is not taking a position on whether these statistics reflect a successful Helpdesk
operation. Rather, it is OIT managers’ responsibility to determine if the statistics meet internal
performance goals. In other words, are these outcomes where OIT wants to be? The OIT should
                                                            
2
    The OIT director further clarified the 30-minute response time. This is the interval of time that staff will make
contact with the requestor – not necessarily visit the requestor’s work station.


                                                               ‐ 5 ‐ 
 
use the results to assess its performance and decide what, if any, changes to make to its service
processes.


Finding 2. Staff Written Comments Provide Suggestions to Enhance User Satisfaction

       Staff comments at the end of the questionnaire identified both Helpdesk strengths and
areas where improvements to service are possible. The OIG considered both to be valuable
feedback. One observation made by the OIG, based on the qualitative responses provided on the
questionnaire, is that there appears to be some level of inconsistency among the quality of
services provided by the Helpdesk. For example, we note just as many negative comments about
the Helpdesk’s responsiveness as positive responses. Several thought the service was “great,”
while just as many others thought the technicians were not “customer friendly.”

       “Timely responses” and “great service!” were the two most frequently noted positive
comments pertaining to the Helpdesk. Follow up by technicians, including “being kept in the
loop” on service status when problems require repeat visits, was the most frequently occurring
suggestion to improve services. Staff also told us that once a request was submitted, many did
not know when a technician would arrive.

        One individual told us that s/he contacted the Helpdesk twice in a five day span to obtain
a status report on a lingering e-mail problem (this individual could not send outgoing messages).
In response to the first request, the Helpdesk responded that it would be “looking into it.” After
several days without resolution or word from the Helpdesk, the employee contacted the Helpdesk
again. This time when the Helpdesk responded, it blamed the problem on the new telephone
installation. This employee expressed frustration to us first, with not being able to do his/her job
effectively for several days (without e-mail), and second, with the response s/he received that
used technical jargon that was unfamiliar to this employee, while associating an e-mail
malfunction with telephone installation. 3

              With this response, the technician closed the service ticket.

        Staff’s concerns with follow up, as well as several other comments by staff citing areas
where improvements are needed, could be addressed with better communication from the
Helpdesk. The OIG noted one technician was consistently given high marks for following up
with employees, through e-mail, to ensure that their problems were fixed. (Comments about
individual technicians were not solicited in the questionnaire. Respondents apparently felt this
particular technician’s performance was noteworthy.)

         The OIG believes that an e-mail notifying the customer that the request was received,
assigned and scheduled for a service call (e.g., an expected window when the technician would
visit or make contact) would address customer concerns regarding communication. For the long
term, OIT should consider providing staff with the capability to submit service requests directly
                                                            
3
  The exact language used by the employee and the Helpdesk technician is not used here to protect the identity of
the employee.


                                                               ‐ 6 ‐ 
 
to the Helpdesk tracking system, automatically creating a service ticket and a tracking number,
which could be accessed by employees to learn what actions have been taken to address their
problem. Comments can also be subsequently added by the requestor to identify new factors
related to the complaint. The tracking system in use by the agency has this capability (at no
additional cost to the agency), but it has not been configured by the agency to perform these
functions.

        The OIG received a number of suggestions to enhance Helpdesk service. With the
exception of follow up and being kept in the loop, comments were made by five or fewer
respondents. While acknowledging the generally favorable levels of satisfaction with Helpdesk
services, these comments are still useful barometers for the Helpdesk to consider as it evaluates
its services and utility, and considers changes in its operations. All comments (without any
identifying information) were provided to the OIT director.

       Recommendation 1. The OIG recommends that staff be notified when a service request is
       received and the expected time that a technician will arrive. If additional service visits
       are required the requestor should be notified that additional visits are needed to fix the
       problem.

       Recommendation 2. The OIG recommends that OIT establish a plan to implement
       requestor access to his/her service tickets, including the ability for self logging of service
       requests.


Finding 3. The Helpdesk lacks documented procedures to guide technicians and ensure
consistency in operation

        According to the Government Accountability Office’s Standards for Internal Control in
the Federal Government, (November 1999) documented policies and procedures provide
controls to help ensure that management’s directives are followed. Lacking documented policies
and procedures, staff is left to perform based on what it perceives to be management’s goals and
objectives.

        Helpdesk technicians we spoke with told us that, while they are not aware of any current
guidelines to use when, for example, prioritizing service calls, such guidance once existed. Due
to the variety of service calls received by Helpdesk technicians, the OIG wanted to assess the
consistency in the way calls are handled by different technicians.

        We interviewed staff assigned to the Helpdesk and received varying responses regarding
how calls are prioritized. The priority level assigned determines the response time. The higher
the priority, the faster the response time, as illustrated below:

       1.   Catastrophic/VIP (Response in 2 hours or less)
       2.   Critical (Response within 3 hours)
       3.   Important (Response within 4 hours)
       4.   Noncritical (Response within 5 hours)

                                                ‐ 7 ‐ 
 
         One technician told the OIG that s/he assigns all calls a priority level of “important”
regardless of the nature of the service requested. One told us that the Chairman, Commissioners
and senior managers have their requests automatically elevated when this technician assigns
priority levels, regardless of the problem. Otherwise, this technician said that s/he bases
prioritization decisions on his/her experience solving IT-related problems.

         There are four priority levels (in order of increasing severity): noncritical, important,
critical and catastrophic. The OIG found that virtually all calls are labeled noncritical or
important. Of 617 service requests, 371 were labeled “noncritical,” 220 were “important,” and
one (1) was “catastrophic/VIPs.” The remaining 25 requests had no priority assignment.

        In addition to discussing how priorities are assigned, the OIG looked at service request
tickets to determine whether the priority levels assigned to them appeared reasonable, i.e.,
commensurate with the description of the service requested. For most of the calls, the priority
assigned seemed reasonable – service requests that could wait were often identified as
“noncritical” and calls impacting staff’s work performance were usually prioritized as
“important.” We felt that the highest priority levels (catastrophic and critical) were underused.

       We also found a number of inconsistencies among service call priority levels. For
example, a service request for a “computer freezing up” was assigned a “noncritical” priority on
some tickets and an “important” priority on others, even though the problem was identical.
Similarly, service requests such as, “Registered Person Index not working,” “undeliverable
e-mail,” “broken printer” and “pc not logging on to network,” were not consistently prioritized.

        On the other hand, some service requests did not seem to us to be commensurate with the
priority they were assigned. For example, we identified the following “important” priority
assignments in the tracking system:

    o   updating telephone directory on the intranet;
    o   message light on telephone not working;
    o   misspelled name in directory;
    o   longer cord for phone needed; and
    o   change screen label title on one application screen.

      We were told that a request is assigned “important” if the problem would keep an
employee from performing his/her job.
         The “noncritical” priority, according to Helpdesk staff, does not impact employees’
ability to perform their duties. The following are some of the requests entered into the tracking
system that were “noncritical:”

    o   user unable to save files in any Word office suites;
    o   can’t log on to pc;
    o   unable to print;
    o   Registered Person Index is down; and
    o   user can’t access her SERVCON account;


                                                ‐ 8 ‐ 
 
        While not second guessing the technician’s judgment, there is no question that like calls
are treated disparately and questionable priorities are assigned to other requests. While we
emphasize that the vast majority seemed to be assigned proper priority levels, we feel the lack of
guidance in this area will continue to result in misplaced priorities. Given that the OIT director
is making changes in Helpdesk protocol (see Finding 4. below), the OIG believes the
development of specific standards would be useful. See Recommendation #3 in the following
finding.


Finding 4. Tracking system could not be relied upon to enable the OIG to evaluate Helpdesk
operations

        Survey results indicated that 66 percent of customers (35 respondents) access the
Helpdesk primarily through e-mail and the OIT Helpdesk telephone line (13 percent or seven
respondents). The request is logged in by the technician at the desk, who assigns it to another
technician for the service call. Repeat calls for the same problem are assigned a new tracking
number with, potentially, a new technician. The three “desk technicians” rotate each week.
Other OIT staff is assigned service calls on an as-needed basis, depending on the nature and
severity of the problem. Technicians on the desk serve an important function by entering calls
into the tracking system, assigning priorities and, on occasion, ensuring service tickets are
closed.

        After the service call is completed, the technician enters the date and time into the
tracking system. This information is critical for monitoring Helpdesk performance because,
according to the OIT director, he assesses timeliness based on data in the tracking system. All
calls are to be logged into the tracking system, although the OIT staff told us that agency-wide
problems (i.e., experienced by several staff concurrently) are not always recorded.

        To assess the timeliness and resolution of service calls, the OIG requested summary
reports similar to the reports used by the OIT director to monitor performance. Reports indicated
that 304 tickets were closed on the same day they were opened. Another 267 tickets were closed
one day after opened and 17 were closed two days after they were opened in the tracking system.
Three service tickets were closed in three or more days and four tickets had no completion date
associated with them. The remaining 22 calls appeared to contain data entry errors as the ticket
displayed a closing date in the tracking system that preceded the date the ticket was opened. For
example, according to the tracking system, one ticket was opened on December 14, 2009 and
closed on December 11, 2009.

         Notwithstanding the data entry errors, the OIG believes that these summary statistics are
misleading for a number of reasons. First, we are aware of problems that remained unfixed for
several days, yet were closed in the tracking system the same or the following day the request
was made. For example, Helpdesk staff told the OIG that systemic problems (affecting many
staff) are often closed in the tracking system before they are fixed. Second, we also noted from
questionnaire responses and, anecdotally, from talking with staff, that some problems required
several days to correct. This is not meant as a criticism of the technician’s ability to fix
problems. Rather it is a reflection that some problems do require a long time to fix. Our point is

                                               ‐ 9 ‐ 
 
that these occurrences are understated in the tracking system because, like the example of staff
with a lingering e-mail problem discussed in Finding 2., some tickets are closed before problems
are corrected.

       The OIG also identified a number of missing entries in the tracking system. During our
kickoff meeting with OIT management, the OIT director estimated that the Helpdesk receives
about 1,200 service requests per year. As noted above, the tracking report we were provided
contained details on 617 requests, or about half of the estimated requests. The OIG determined
that some missing entries were the result of service requests not entered by technicians.
However, we could not determine why blocks of time e.g., the entire month of September 2009,
were missing.

       Discussions with both technicians and the OIT director indicated that some service
requests are not logged into the tracking system. In some instances, the omission is intentional.
For example, one technician told the OIG that if a request involves a question that can be
answered quickly over the phone, s/he will not log it into the tracking system. Another
technician told us that systemic problems affecting many staff concurrently will, similarly, not be
logged more than once.

        The OIG was provided copies of select e-mail requests made to the Helpdesk during the
period reviewed. Of 22 e-mail requests, we determined that 18 requests were not entered into the
tracking system.

        We also noted that no entries were logged into the tracking system for large blocks of
time. For the year requested, no information was available for requests made on the following
dates (76 working days):

           •   June 9 – 30, 2009
           •   July 22 – 31, 2009
           •   August 3 – 11, 2009
           •   August 19 – 31, 2009
           •   September 1 – 30, 2009
           •   October 1 – 21, 2009

        The OIT director told the OIG that he was made aware of the “discrepancies,” but not
until several months after they had occurred.

Besides missing service tickets, the OIG noted delays in entering service requests into the
tracking system. In one instance, a request to repair a significant word processing problem was
not entered into the tracking system for eight days, even though technicians were responding to
the problem in the interim. In another case, a service request regarding e-mail malfunction was
made on a Tuesday evening but not entered or addressed by the Helpdesk until Thursday
morning. Whether intentional or not, delaying the creation of service tickets will skew the
performance summaries used by the OIT director to assess performance.


                                               ‐ 10 ‐ 
 
       The OIT director told the OIG that he implemented some procedural changes to address
problems similar to those identified by the OIG. These new procedures are identified below:

    1. Record all calls via phone or Help-desk e-mail into Track-IT, whether or not the call is
       resolved at that point.
    2. After a call is closed out and user confirms, any new call with similar problem will be
       treated as a new incident to avoid confusion about whether to re-open an old call.
    3. Response Time to Calls will be less than 30 minutes.
    4. Monthly reviews of the Helpdesk calls will be conducted by the IT Director.
    5. A follow-up review will be conducted in three months to conclude if further changes
       need to be made.

        Once fully implemented, these changes may enhance service outcomes by giving the
director more accurate information on which to assess performance. The OIT director should
follow up to ensure his instructions are followed by staff. Without better controls over when a
service request is entered and a ticket created, the IT director is basing his evaluations on
incomplete, inaccurate and possibly skewed data.

        Further, the OIT director should determine the reason for the missing entries during the
periods identified above with an eye on preventing similar glitches in the future. Requiring
technicians to be more diligent about entering information would not address the discrepancy
that resulted in periods of missing data. Further, steps should then be taken to prevent similar
events in the future.

       Recommendation 3. The Director of the Office of Information Technology should create
       Helpdesk standard operating procedures to incorporate the Director’s new Helpdesk
       changes, and, at a minimum, incorporate standards for assignment of priority level and
       ticket closure. Specifically, identical events should be assigned the same priority and
       tickets should remain open until the service technician can verify that the problem was
       fixed or requested service was provided.


Finding 5. Tracking System features and Capabilities are Underutilized

       In 2004, the Helpdesk procured tracking software to record, prioritize and assign service
requests to OIT technicians. Maintenance is provided and must be renewed each year. In FY
2010, OIT paid Numara Software $1,300 for the service.

       The OIG determined that the agency is using the most basic features of this product, and
not implementing other (some already-paid for) features, to include automatic assignment to
technicians, automated escalation of service calls, automated alerts to keep customers and
technicians continually informed, trend analysis, asset and requester history to help spot


                                              ‐ 11 ‐ 
 
recurring issues. Staff told us it has not received training on Helpdesk operation generally or
Numara tracking software.

              Recommendation 4. Provide training on Helpdesk operations and specifically on the
              software used by OIT to track service requests to implement additional capabilities of the
              tracking software.


Finding 6. OIT does not perform surveys to assess user satisfaction

        User surveys are a useful means to assess satisfaction with services and to spot small
problems before they become ingrained in the process. The OIT director told the OIG that it
used to ask for feedback from staff after services were provided. Technicians would leave the
customer with a postcard-sized survey card that identified the technician providing the service.
The OIT director told the OIG that the survey was discontinued due to poor response rate by
customers.

         The tracking system used by the Helpdesk has the capability to send out a brief
satisfaction questionnaire, but it cannot make people respond. The difference with this survey is
that it is electronic and much of the “background” information is already known and does not
require the customer to complete more than a few data fields. The card is then transmitted via e-
mail to the Helpdesk, unlike the survey card that had to be physically carried to OIT. OIT may
experience a more robust response using this simplified process. 4

       Alternatively, electronic surveys can be easily administered on a periodic basis (e.g.,
biannually) to assess user satisfaction. We think that either option would produce the results
needed to help OIT perform at the level to meet staff needs.

              Recommendation 5. Implement user satisfaction surveys. Either configure tracking
              system software to send user satisfaction surveys to customers upon the closure of the
              service ticket, or design an in-house form administered periodically.




                                                            
4
   Unlike other unused features, configuring the tracking system to automatically send out user satisfaction surveys
may require “add-on” software from the vendor at an additional cost.


                                                               ‐ 12 ‐ 
 
Summary

        The user satisfaction survey indicated that staff is generally pleased with the service it
receives from the Helpdesk. Important indicators, such as the overall Helpdesk experience, the
ease to reach a technician, the professionalism of help desk staff, and staff expertise, were all
positively rated. OIT can learn from the positive results to reinforce select existing practices.
On the other hand, OIT needs to enhance communication with its customers.

        OIT should develop documented procedures and guidance. This helps to ensure
consistency in operations and that management’s objectives are being carried out. It is also helps
to hold employees accountable. Guidance is especially needed to help staff prioritize service
calls.

        Finally, we have several concerns with the tracking system. Missing service tickets,
incorrect performance information and system discrepancies call into question the utility of the
director’s monthly system reviews. If these reviews are to produce useful information upon
which to base decisions then the information relied upon must be accurate.

       We view it as a positive sign that management proactively has begun to revise its internal
operating procedures. But, as the survey indicated, more should be done – especially as the
agency continues to automate all major functions and processes. The support provided by the
Helpdesk is essential for the agency to carry out its regulatory and programmatic missions.




                                               ‐ 13 ‐ 
 
                                                                                           ATTACHMENT I


                 OIG HelpDesk Support Satisfaction Survey

Summary


Report
                5/10/2010 9:54:24 AM
Created:
Survey          http://www.acebit-service.com/survey3/superlite/UserFiles/670/3C6B8CAA-1C9C-420A-A5D7-
Published at:   A0459C1F9CFF/Help%20Desk%20Support%20Satisfaction%20Survey.html
Survey
Published       4/22/2010 6:39:08 PM - 5/6/2010 9:41:35 PM
during:
Total Number
                53
of Responses:
1. How often have you contacted the HelpDesk for service in the past year? Note: If you
have not used HelpDesk Services in the past year, please stop here and return the
questionnaire to the OIG.




                              Response          Count    Percent   Legend



                        Weekly                      9    16.98%



                        Monthly                     28   52.83%



                        Every six months            10   18.86%



                        Once/year                   1     1.88%



                        Less than once a year       5     9.43%




                                                2
2. What method do you typically use to contact the HelpDesk?




See Below



                                  Response                 Count   Percent   Legend



                HelpDesk Telephone (X-0854)                   7    13.20%



                Individual OIT staff telephone or e-mail      8    15.09%



                HelpDesk e-mail (OIT-HelpDesk@fmc.gov)       35    66.03%



                Other                                         3     5.66%




                                                       3
3. Please identify the reason for your most recent call to the HelpDesk.




See Below



                                Response                   Count   Percent   Legend



                     Hardware problem                         9    16.98%



                     Software problem                        12    22.64%



                     Network problem                          8    15.09%



                     Install/move/add/change request          7    13.20%



                     BlackBerry problem                       3     5.66%




                     Other                                   14    26.41%




                                                       4
4. For your last service request indicate the time required by the HelpDesk technician to
respond in person to your service request.




                 Response               Count                  Percent        Legend




          1-2 hours                      30                    58.82%




          2-4 hours                       9                    17.64%




          4-8 hours                       3                    5.88%



          24 hours                        2                    3.92%




          2-4 days                        5                    9.80%




          More than 4 days                2                    3.92%




                                                5
5. Regarding the last request, was problem resolved to your complete satisfaction?




See Below




                                Response                 Count    Percent   Legend




             Yes, by the HelpDesk                         43      82.69%




             Yes, by me or someone outside the FMC        0        0.00%




             No                                           7       13.46%



             No problems                                  2        3.84%




                                                     6
         6. For these HelpDesk services, how satisfied are you?




         See Below



                                  Extremely       Very             Somewhat                         Very          Don't
                                                                                   Unsatisfied
                                  Satisfied      Satisfied          Satisfied                     Unsatisfied     know


Legend


The speed in which you can         12 (22.64%)   27 (50.94%)          8 (15.09%)      2 (3.77%)       4 (7.54%)   0 (0.00%)
reach a HelpDesk technician

The time it took to solve your     11 (20.75%)   24 (45.28%)         12 (22.64%)      2 (3.77%)       4 (7.54%)   0 (0.00%)
problem
The professionalism of the         17 (32.69%)   24 (46.15%)          8 (15.38%)      1 (1.92%)       2 (3.84%)   0 (0.00%)
HelpDesk staff
Technical expertise of HelpDesk
                                   10 (18.86%)   25 (47.16%)          8 (15.09%)      3 (5.66%)       2 (3.77%)   5 (9.43%)
team

Technician follow up (when
                                   10 (19.23%)   26 (50.00%)         12 (23.07%)      0 (0.00%)       2 (3.84%)   2 (3.84%)
required)

Technician keeping you             12 (23.07%)   20 (38.46%)         11 (21.15%)     6 (11.53%)       2 (3.84%)   1 (1.92%)
appraised of service progress
Overall experience                 13 (24.52%)   24 (45.28%)         11 (20.75%)      3 (5.66%)       2 (3.77%)   0 (0.00%)



                                                               7
7. In space provided below please respond to the following questions: a. What does the
HelpDesk do well? b. How can the HelpDesk serve you better? c. Is there anything you
would like to tell us about Helpdesk service that was not already asked in the survey?

Response
                                                                           Response
   ID

           A. Not sure. B. Be more timely, and more responsive. C. Clarence seems to be the one exception to my otherwise unsatisfactory
23909
           experiences with HelpDesk. He's more responsive than the others I've dealt with.



           The HelpDesk does not have a service orientation. IT is slow to respond and is not always good at fixing the problem. There seems to
23910      be an improvised approach to most everything. We need a "live" help line, where a real, live person picks up the HelpDesk phone.
           Response-time to reported problems needs to be much quicker.



           a. In my experiences with the HelpDesk, they have always responded in a timely manner to my problems and tried to resolve the issues
23911
           as quickly as possible. b.No response. c. No.



           a. The employees who work at the Help Desk are very nice and friendly. b. Sometimes no one answers the Help Desk line. One time I
           left a message and was never called back. I'm not sure this is a Help Desk issue, but I've been generally disappointed with the number
           of IT issues I've had to deal with at the Commission. My computer is often slow or freezes and requires rebooting, my phone doesn't
           work all of the time, some days I can't open links in e-mails unless I restart my computer, I get pop ups for software updates even
           though someone from the help desk came and looked at my computer and told me they fixed this. This is all with the new computer. It
23912
           was also frustrating that it took so long for everyone to get new computers. I believe the Commission received the new computers 5-6
           months before they were installed. Receiving so many spam e-mails is also frustrating and doesn't create a lot of confidence in our
           security system. I also know that people avoid asking IT to do things because they expect it will take a long time, and instead figure out
           a way to do it themselves. I've worked in the private sector and at other places in the government and have never had so many IT
           issues/concerns. I'm not sure if this is a personnel issue or a budget issue. c. I can't think of anything.



           a) HelpDesk always tries its best to help out. But it is not necessarily the fault of Help Desk, but rather the system itself. b) Follow up
           time is very slow. If the problem is fixed, generally, the same or a different problem occurs. c) Yes - I have tallied up statistics on the
           amount of technological problems that have occurred throughout a span of 1 year in BCL alone. The statistics that I have gathered
           (supported by evidence - by E-mail) is the following: In 2009 - 52 recorded problems (March'2009 through November'2009) In 2010 -
23913
           23 recorded problems (January'2010 through April'2010) Please note - this only includes E-mails in which I was cc-ed in or in which I
           have communicated in. It includes generally BCL and not the FMC's other departments. Furthermore, it also does not include the many
           instances of calling HelpDesk via telephone or simply walking over to fix the problem. As an attachment to this questionnaire, I have
           submitted the E-mails to the IG Office.



23914      No response.



           a. They always acknowledge quickly any request I put in. They try to fix anything that is wrong quickly, or at least let me know they are
23915
           working on it. b. I'm happy with the HelpDesk service. c. No



           a. The staff usually get the problem solved one way or another. b. The staff should be more customer-friendly and follow basic
           protocols, such as 1) Listen to your problem; 2) Repeat the problem for clarification; 3) Explain how the problem will be fixed and give a
           time-frame/offer replacement equipment if necessary while the problem is fixed; 4) Solve the problem; 5) Follow up after the problem
           is fixed; 6) Ask the user if they have any questions and thank them for their time. c. Yes, the survey above does not address the fact
           that certain Help Desk staff (OIT staff) are more professional and helpful than others. While all are good people who know what they
23916
           are doing, some do not communicate very effectively. For instance, when my BlackBerry was replaced, the staff member came to my
           office and said, "I need to see your BlackBerry." When I saw a new one I understood it was being replaced, but that is not the most
           professional way to approach it. I should have received and e-mail or phone call in advance explaining the upgrade and if I had any
           questions. More than two weeks later, there have been no instructions as to password set-up (I was told there was no password for
           now). I am happy to discuss this and give further examples, etc., if needed. Thank You!




                                                                      8
Response
                                                                            Response
   ID

           For more complex problems, there are only a select number of individuals in the IT office which I believe can fix the problem. I do
           believe a number of the individuals in the office have limited experience with solving software problems. While IT always responds
23917
           quickly to a request from our office, it often takes a while to solve the problem. I often ask the Secretary's office, who are always very
           helpful, to help with my computer problems.



23918      Service is great



23920      I have been very or extremely satisfied with the response and professionalism of the Help/Desk staff.



23921      Maybe publicize what services are offered and the best way to reach them. They are professional and helpful. Great follow-up.



23922      a. The staff take their jobs seriously. b. Notifying the requestor when some project is completed.



           a - software troubleshooting b - keeping me abreast of the status of requests. Apprising me when requests are completed that I may
           not know of unless I go back into the software. c - when a technician doesn't know how to resolve the issue, the OIT staff that knows
23923
           how to resolve the issue should come up to the offices to fix it. Instead of the technician being on the phone with staff to troubleshoot
           or the technician leaving and coming back later bc it takes time out of the employee's day to be interrupted to resolve the issue.



           a. Time permitting, the OTI Help Desk serves as a singular point of contact for all OIT related issues. Without it, we would need to track
           down individual technicians on problem based complaints. (IE Wyman for LAN issues, Tony for Blackberry issues etc.) b. Most of my
           issues relate to disruption of service (i.e. cannot get into Servcon, cannot get into RPI) and often involve server or LAN problems.
           Because of the West Coast Time differential, a call to the Help Desk will not generally provide a timely response. I routinely circumvent
23927
           the Help Desk and call Wyman Pitts directly. Considering the field offices remote locations and variable hours of operations, a
           dedicated field office technician might be beneficial. c. I would like to add an observation. As technology becomes increasingly
           sophisticated, we become ever more dependent and demanding of our OIT staff. I, for one, think they do an excellent job of customer
           service commensurate with their technical expertise and available hardware/software.



           a. They are: (1)courteous; (2)professional; and(3)knowledgeable. If I have a question that cannot be answered at the present time,
23932
           they will call back with the answer to the problem within that day. b. Maybe have someone on duty at 6:30 am. c. No.



           a. Responds pretty quickly to reported problems. b. Make visible the status of work order requests. c. HelpDesk service has noticeably
23933
           improved in the past 6 months. They seem to be doing a good job in trying circumstances.



           a. I have found that the HelpDesk install and set up new computers well. b. I do not have any complaints regarding the service that the
23934
           HelpDesk offers. c. No.



23941      a. Technical knowledge. b. Response time; have sent occasional reminders when no one responds. c. N/A.



           a) In my experience, the Helpdesk is good at solving hardware & software problems. b) Acknowledging requests would be helpful in
23942
           situations where they cannot get back to you as quickly as they probably would like to. c) No



23980      a. they are good at responding quickly when requested. b. continue to upgrade the quality of equipment. c. no



           In my dealings with them I have found the OIT staff to be very professional & courteous. If I had to make a suggestion for improvement
24000
           it would be for them keep the FMC staff in the loop regarding matters that directly affect staff productivity such as network issues,
           software changes, etc. This would include perhaps a short e-mail explaining the issue and how it was resolved. Without this type of


                                                                      9
Response
                                                                             Response
   ID
           feedback from the source, people tend to make up their own reasons, which is counterproductive.



           Clarence and Cassandra are both very personable and Clarence is very helpful. The helpdesk could improve by understanding that
           agency employees are their customers, rather than behave as if the employees are a burden. Although number 2 indicates contact
24059
           mostly through helpdesk, it is only because for most of the past year that was the method used. However, the response was so poor,
           that I switched to contacting IT people personally.



           a: Take care of IT problems as they arise. b: I have no complaints concerning the help desk or IT responses. c: Question 4 does not allow
24378      for a response that the IT department acted in less than one hour. My most recent problem was acted upon in less than 5 minutes. The
           IT department has always responded to problems I have brought to their attention in less than one hour.



           A. solving simple problems, i.e. resetting a password. B. Initial contact to acknowledge receipt of complaint would be helpful. Also
24379      when a return visit is necessary, an appointment rather than just showing up would be preferred. C. It seems that services out of the
           routine (install new hard drive, telephone problems, etc) take a lot longer to correct. The



           Question 1: Not on a regular basis but about 8 - 10x yearly for different things. Question 4: less than 15 min. I have never had a
           problem with the help desk or the staff. Every time I need assistance, or need equipment set up for a meeting - even on very short
24381
           notice - staff are ready/willing/able to help. My requests for assistance are NORMALLY met in well under an hour, and if a problem is
           going to take longer than a few minutes to fix, staff has always kept me informed in a courteous and professional manner.



24154      a. In my experience, quick response b. satisfied, no suggestions c. not at this time



           Respond quicker when you walk to their area to grab them for service. Have more than 1 staff member equipped to handle your need.
24162
           No.



           Serve better - timely acknowledge receipt of request, provide reasonable timeframe for response / resolution, and follow through. If
24223      running into problem completing task, effectively communicate situations and new completion date. Offer reasonable solutions, not
           just push back on new or unusual requests.



           I don't believe that the survey will present a fair assessment of the OIT help desk. The time permitted to respond is too short, which
           will reduce the potential response pool. Also, the question regarding the response time does not permit a "less than 1 hour response"
           which would have been my answer. Further, we are only permitted to provide one response, but multiple answers may be applicable.
24240      Is question 6 referring to your responses for questions 3 through 5? This is not clear. You are asking questions regarding a specific
           incident, but what about a question regarding a longer time period,i.e., 6 months, 1 year, 2 years? I think that our OIT staff has
           performed commendably during the past year, particularly while trying to implement new equipment that is designed to improve our
           day-to-day performance, such as the new telephones and agency-wide computer replacements.



           the HelpDesk is the best way to let OIT know of any problems, request for services and general questions. It benefits both the
24241      requester and OIT by having a "paper trail" as it were for tracking purposes. I've had great success when properly making a request
           through the HelpDesk and not direct contact. Everybody should be required to use it.



           a. Recently, the help desk response time has been very positive. b. Overall, the perception is that the staff need to improve its
24242
           behavior/attitude when working with FMC personnel.



           a) Personalized service if needed, friendly staff b) by responding quicker or if the job will take longer, they will have to notify us & tell
24243
           us what are the measures they are trying to do to solve the problem c) N/A




                                                                       10
Response
                                                                          Response
   ID

           Too much overlap, not enough follow-up. When I call the Help Desk, no one answers. Email requests are good but if the problem is
24244      something an IT staff member must see, it delays my productivity. The problem is not resolved and then I have to wait to see if it
           comes up again. Don't always get a ticket number with requests.



           re: Q2, I use both email and x0854 depending on the service request and urgency. The helpdesk responds quickly but doesn't always
24245
           know how to solve the problem or even understand what the problem is.



24251      I have never used the HelpDesk



           For Question 2 - I contact Individual OIT staff by telephone or e-mail and/or send the HelpDesk an e-mail (OIT-HelpDesk@fmc.gov) A -
           They listen to the problem B - They need more staff in order to devote to problems as they arise C - There seems to be a problem in
24252      dealing prioritizing requests. The order in which requests are dealt with is very arbitrary and has nothing to do with the needs of the
           office involved. No thought is given to the person's need/ability to properly do their work. It’s OK if you can function but there is
           always a work around or temporary fix and sometimes people forget to come back with a permanent fix to the problem



           The assistance I require from the HelpDesk are FMC-1 and SERVCON requests from external users. Normally these are not hardware or
24255
           software problems but external user data errors or password requests.



           a. OIT staff has always provided prompt, courteous assistance. b. ? c. my experience has been that they respond and fix problems or
           provide the services in need in well under 1-2 hours. Usually in MINUTES, not hours. For example, I have asked them several times on
24256
           very short notice to set up a laptop for meetings, and within 10-15 minutes, the work is done. I have also had excellent assistance in
           copying materials to CDs for distribution to the congress and senate.



24257      Stronger follow up needed...



           Generally, I may request help every other month rather than monthly. The help desk responds to my problem and issues are resolved.
24265      They do a very good job of responding and when they can resolve immediately, it is excellent. Sometimes, follow-up on issues can be
           slightly less satisfactory.



           No comments on the HelpDesk but would suggest you include an option to "fill in the blank." For example, regarding Q 4, my last
24276
           helpdesk request was acted on in less than the "1-2 hour" timeframe you allow an answer for.



24277      Clarence is what is good about the HelpDesk. We could use more like him. He communicates, follows up, and is pleasant to work with.



           a. Software installation. b. By being better trained. c. It seems to me that the HelpDesk does not often know how to fix most of the
24289
           problems I have, and often appears reluctant to respond when contacted.



24291      fix my problems ???????




                                                                    11
UNITED STATES GOVERNMENT                                             FEDERAL MARITIME COMMISSION

    Memorandum
TO          :  Inspector General                                         DATE:  July 27, 2010 


FROM        :  /Anthony Haywood/, Chief Information Officer 


SUBJECT  :  OIG User Satisfaction Survey of OIT HelpDesk 


        The  above‐captioned  report  contains  five  recommendations  relative  to  the  OIG’s  user 
satisfaction  survey  of  the  OIT  HelpDesk  policies  and  procedures  at  the  Federal  Maritime 
Commission.  We herein provide advice concerning those recommendations.  

         Recommendation No. 1:  The OIG recommends that staff be notified when a service 
request is received and the expected time that a technician will arrive.  Further, if additional 
service visits are required, the requester should be notified that additional visits are needed 
to fix the problem. 

       Response:    The  OIT  agrees,  and  will  begin  adding  the  technician’s  expected  response 
time and additional information, if needed, to the e‐mailed work order response to satisfy this 
recommendation by September 1, 2010. 

      Recommendation No. 2:  The OIG recommends that OIT establish a plan to implement 
requester  access  to  his/her  service  tickets,  including  the  ability  for  self‐logging  of  service 
requests. 

       Response:    Given  our  user  population,  there  is  some  question  about  the  costs  and 
benefits to be derived from implementing this recommendation.  The Director, OIT will perform 
a cost/benefit analysis by the end of calendar year 2010 to determine its value.   

       Recommendation No. 3:  The OIG recommends that the Director, OIT create HelpDesk 
standard  operating  procedures  to  incorporate  new  HelpDesk  changes  and,  at  a  minimum, 
incorporate standards for assignment of priority levels and ticket closure.  Further, identical 
events should be assigned the same priority and tickets should remain open until the service 
technician can verify that the problem was fixed or requested service was provided. 

                                 
       Response:  OIT agrees that guidance issued in the past for assignment of priority levels 
should  be  updated,  and  will  be  incorporated  into  a  newly  developed  SOP.    The  SOP  will  also 
include procedures on ticket closure.   It is anticipated that this SOP will be completed by the 
end of calendar year 2010. 

       Recommendation  No.  4:    The  OIG  recommends  that  OIT  staff  receive  training  on 
HelpDesk  operations  and  on  the  software  used  to  track  service  requests  to  implement 
additional capabilities of the tracking software. 

        Response:  On‐line training modules were available to OIT staff for the Track‐IT software 
during FY 2009.  Before the end of calendar year 2011, the Director, OIT will ensure that OIT 
staff receives training on HelpDesk operations and on Track‐IT software and its capabilities. 

       Recommendation No. 5:  The OIG recommends that OIT implement user satisfaction 
surveys,  either  by  configuring  tracking  system  software  to  send  user  satisfaction  surveys  to 
customers  upon  closure  of  service  tickets,  or  by  designing  an  in‐house  form  administered 
periodically.   

      Response:    OIT  agrees  with  this  recommendation  and  will  periodically  distribute  a 
HelpDesk survey.  It is anticipated that the first survey will be administered by the end of the 
second quarter of FY 2011. 


        If you have any questions regarding the above responses, please let me know. 


cc:     Director, OIT  
        Managing Director (AFO) 
        Special Assistant to the Managing Director 




                                                                                                 Page | 2
